OIG Audit Report GR-40-00-013
Compliance with Standards Governing Combined DNA Index System Activities
North Carolina State Bureau of Investigation
Crime LaboratoryRaleigh, North Carolina
Audit Report GR-40-00-013
June  2000
Office of the Inspector General

EXECUTIVE SUMMARY
The Office of the Inspector General, Audit Division, has completed an audit of compliance with standards governing the Combined DNA Index System (CODIS) activities at the North Carolina State Bureau of Investigation Crime Laboratory (Laboratory).  CODIS is a national information repository maintained by the Federal Bureau of Investigation (FBI) that permits the storing, maintaining, tracking, and searching of DNA specimen information in order to facilitate the exchange of DNA information by law enforcement agencies.  The Laboratory received two grants, totaling $279,000, funded through the Department of Justice.

	Our audit generally covered the period from the implementation of CODIS at the Laboratory in November 1996 through March 2000.  The objectives of the audit were to determine if the Laboratory:

complied with the FBI's Quality Assurance Standards (QAS) and National DNA Index System (NDIS) requirements, and

	uploaded DNA profiles (a computerized record containing DNA characteristics used for identification) to NDIS that were complete, accurate, and in accordance with the QAS, NDIS requirements, and state legislation.

We found that the Laboratory uploaded complete and accurate DNA profiles to NDIS; and, although the Laboratory generally complied with the QAS and NDIS requirements, we noted the following instance of noncompliance.

The Laboratory uploaded ineligible DNA profiles to NDIS.  Of the 100 profiles reviewed, 32 profiles (32 percent) were ineligible since the profile matched either the victim or an elimination standard (a known DNA sample from someone other than the suspect).  The NDIS requirements prohibit laboratories from uploading DNA profiles that are unambiguously attributable to a victim or to known individuals other than the suspected perpetrator(s).  Following our discovery of the error, we spoke to Laboratory officials and learned they were unaware of this NDIS requirement.  Laboratory officials then took immediate steps to review their entire database and remove all unallowable profiles from NDIS.
 
The audit results are discussed in greater detail in the Findings and Recommendations section of this report.  Our audit scope and methodology appear in Appendix I, background information is contained in Appendix II, and the audit criteria are discussed in Appendix III.  The history and status of DNA testing and CODIS use at the Laboratory appear in Appendix IV.